F03-1842-6 -0210 CP10-77797

Trustmark National Bank
CARDHOLDER AGREEMENT
AND DISCLOSURE STATEMENT
This Agreement contains the terms that govern the use of your Visa or
MasterCard Card Account and outlines both your responsibilities and
ours. Please read it in its entirety and keep it for your reference. The
accompanying Summary of Terms is hereby incorporated into and
made a part of this Agreement. In addition, the application,
acceptance certificate or other request you signed or otherwise
submitted for this Account (the “Application”), your Card and the Card
Carrier that we send with your Card, and your signature (including any
electronic or digital signature) on any Application, sales slip or other
evidence of indebtedness on your Account, are hereby incorporated
into and made a part of this Agreement. This Agreement begins on the
earlier of (i) the date you sign or otherwise submit an Application that
is approved by us, or (ii) the first date that we extend credit to you on
your Account, as evidenced by a signed sales slip or memorandum, a
Cash Advance transaction, a Balance Transfer transaction, or otherwise.
Definitions
To simplify this Agreement for you, the definitions listed below will
apply throughout, both in this Agreement and in your monthly
statement. In addition, the words you, your, and yours refer to the
Cardholder(s) who holds the Card and is responsible for the Account.
The words we, us, and our refer to Trustmark National Bank, Jackson,
Mississippi.
Account: The credit card account for which you were issued a Card
imprinted with your Account number, that is subject to all terms and
conditions of this Agreement.
Account Year: The 12-month period (consisting of 12 Billing Cycles)
commencing with the first Billing Cycle that begins when the Account
is opened and each successive 12-month period thereafter.
ATM: Automated Teller Machine.
Balance Transfer: A transaction in which, pursuant to your request, we
may arrange directly with another financial institution to transfer to
your Account all or a portion of an outstanding balance you owe or for
which we send you Special Checks to use for such purposes. Your
use of a Check or your Card, or any Cash Advance obtained by such
use, to pay yourself all or a portion of such an outstanding balance is
not a Balance Transfer for the purposes of this Agreement. A Balance
Transfer is treated as a Purchase for purposes of this Agreement,
except that in the provisions for determining the Interest applicable to
your Account, separate provisions apply to Balance Transfers and to
Purchases. Accordingly, in the Interest provisions of this Agreement
the terms “Purchase” and “Purchases” do not refer to Balance
Transfers.
Billing Cycle: The time interval covered by a monthly statement. Each
Billing Cycle is approximately 30 days in length.
Card: Any Visa or MasterCard credit card issued by us which you may
use to obtain cash, make Purchases, or lease goods or services on
credit. Use of your Account number to obtain credit will be
considered a use of the Card.
Card Association: MasterCard Worldwide or Visa U.S.A., Inc.
Card Carrier: The carrier that contains your Card.
Cardholder: The person to whom a Card is issued, or who has agreed
to pay obligations arising from a Card issued to another person.
Cash Advance: Credit extended to you in the form of a cash loan
through any financial institution honoring the Card either presented
directly or through any other credit instrument, Check, device,
overdraft coverage plan or ATM that we make available to you.
Ceiling Rate: The maximum annual percentage rate that may be
applied to your Account balance(s).
Check: Any check we make available to you for the purpose of
drawing against your Account. These are subject to the same terms
and definitions as Cash Advances unless otherwise noted.
Closing Date: The date of the last day of a Billing Cycle.
Credit Line: The maximum amount of credit available to you on your
Account.
Floor Rate: The minimum annual percentage rate that may be applied
to your Account balance(s).
Foreign ATM Fee: The fee assessed for the usage of an ATM that is
not owned or operated by us.
Foreign Currency Conversion: You may make a Purchase or obtain a
Cash Advance in a currency other than U.S. dollars or in a country
other than the United States. If you do, the card association will
convert the transaction into U.S. dollars. The conversion rate between
the transaction currency and the billing currency will be either (i) a rate
selected by the card association from the range of rates available in
wholesale currency markets for the applicable central processing date,
which rate may vary from the rate the card association itself receives,
or (ii) the government-mandated rate in effect for the applicable
central processing date. The conversion rate the card association
uses may differ from any published rate in effect on the day you made
the transaction or the day it was posted to your Account.
Margin: The amount added to the Prime Rate in the calculation of a
variable Monthly Periodic Rate. “Prime Rate” is defined below in this
Agreement under “Regular Monthly Periodic Rates.”
New Balance: The total outstanding Account balance on the Closing
Date specified on your monthly statement.
Previous Balance: The balance of your Account at the beginning of a
Billing Cycle. This will be the same as the “New Balance” shown on
your previous bill.
Purchase: Any extension of credit to your Account for the purpose of
purchasing or leasing goods or services from participating
establishments.
User: Any person authorized by you to obtain credit under your Account.
USING YOUR CREDIT CARD
Purchases or Cash Advance
You may use your Card or Checks to purchase or lease goods or
services from participating establishments. You may also use your
Card to obtain Cash Advances from your Account at an ATM, or by
presenting it to us, or to any institution that accepts the Card for that
purpose.
You will owe us for these amounts, plus any applicable Interest and
other applicable charges or fees, payable in U.S. dollars.
Your Credit Line
You may not use your Account in any way that would cause you to go
over your Credit Line. We may refuse to authorize or accept any
transaction on your Account if your outstanding Account balance
exceeds your Credit Line or if the transaction (if authorized) would
cause you to exceed your Credit Line or if your Account is delinquent.
We may in our discretion from time to time, but are under no
obligation to do so, allow you to make a Purchase, Cash Advance or
Balance Transfer transaction that causes you to exceed your Credit
Line. If we do allow you to exceed your Credit Line at any time, you
must repay the excess amount according to the terms of this
Agreement and we are not obligated to allow you to exceed your
Credit Line at any other time in the future. We may change your Credit
Line amount at any time and will notify you accordingly if we do so.
Checks
We may supply you with personalized Checks that are subject to the
following conditions. Payment of a Check will be treated as a Cash
Advance on your Account for Interest calculation purposes and all
other purposes. Your Check must be written in U.S. dollars. Only the
person whose name appears on the Check may sign it. We are
authorized to pay any Check drawn on your Account even if the
signature does not correspond exactly to the signature on our records.
You agree that Checks written on your Account will not be returned to
you. We are entitled to return any of your Checks unpaid if your
outstanding Account balance is in excess of your Credit Line or if
payment of the Check would cause you to exceed your Credit Line, or
if your Account is in default, or if your right to obtain further credit
under your Account has been terminated. If we honor the Check under
these circumstances, the amount in excess of your Credit Line will be
due immediately. You may not use a Check to make payments on
your Account or any other account you may have with us.
We may pay Checks dated more than six months prior to the date they
are presented for payment. You may not write a postdated Check, but
we may pay a Check regardless of a postdate. We will not certify a Check.
MAKING PAYMENTS

Monthly Statements
We will send a statement at the end of each monthly Billing Cycle if
there is a debit or credit balance on your account of $1 or more, a
balance on which Interest has been imposed or as otherwise required
by applicable law. You agree to pay us, or any party to whom we may
transfer and assign your Account, in U.S. dollars according to all
terms and conditions of this Agreement.
Minimum Payment
The Minimum Payment is the greater of 3% of your New Balance or
the sum of all Fees, Interest and any past due amounts plus 1% of
your New Balance. If you elect not to pay your New Balance in full,
you must pay the Minimum Payment so that it is received by the
“Payment Due Date” shown on your statement, which is at least one
month after the Closing Date of the Billing Cycle. Your Minimum
Payment will also include any amount by which the New Balance
exceeds your Credit Line.
You may, at any time, pay more than the Minimum Payment without
incurring any additional charge for prepayment.
Payments received by 5:00 pm Central Time at the “remit to” address
on the front of your Monthly Statement will be credited on the
business day (Monday through Friday) received. Any payment
received after such time will be credited the next business day.
Payments received at other locations may be subject to delay in crediting.
Application of Payments
We reserve the right to apply payments to your Account, in any
manner we choose at our sole discretion, in accordance with
applicable law.
Security Interest
If we now or in the future, hold any title, pledge or security interest in
any of your property other than your principal residence, it may be that
the terms of the instrument creating such title, pledge or security
interest will also secure your obligations on this Account.
HOW INTEREST IS DETERMINED
Your Interest for any Billing Cycle will include the following
components, the total of which constitutes your total Interest for the
Billing Cycle:
(1) a Foreign Transaction Fee Interest charge in an amount
determined as provided in the accompanying Summary of Terms,
which is imposed on each Purchase made or Cash Advance
obtained in a currency other than U.S. dollars or made outside
the United States, and
(2) a Foreign ATM Fee Interest charge in an amount so determined
by the owner/operator of the ATM machine that is imposed on
each transaction made at an ATM that is not owned or operated
by us, and
(3) periodic Interest amounts computed by applying the applicable
Monthly Periodic Rate or Rates, determined as provided below
under “Computing the Monthly Periodic Rates and corresponding
ANNUAL PERCENTAGE RATE (APR)” and in the accompanying
Summary of Terms, to (i) your Average Daily Balance of Cash
Advances (including new Cash Advances), and (ii) (except when
you are entitled to avoid paying interest on Purchases described
below) your Average Daily Balance of Purchases (including new
Purchases), and (iii) your Average Daily Balance of Balance
Transfers (including new Balance Transfers), except that if there
is a periodic Interest charge so computed for Purchases or Cash
Advances or Balance Transfers, that is less than any applicable
Minimum Interest charge shown on the accompanying Summary
of Terms, then that Minimum Interest charge will instead be imposed.
When Interest Begins to Accrue
Subject to any period to avoid paying Interest, Interest on Purchases
will be imposed at the applicable Monthly Periodic Rate from the date
each Purchase is made and will continue to accrue on unpaid
balances as long as they remain unpaid. You will have at least a one
month period to repay any new Purchases included in the New
Balance (if any) shown on your statement for any Billing Cycle to
avoid incurring an additional Interest charge on new Purchases. No
Interest charge on Purchases will be imposed for any Billing Cycle in
which the Previous Balance is zero or a credit balance. Interest on
Cash Advances and Interest on Balance Transfers will be imposed at
the applicable Monthly Periodic Rate from the date each Cash
Advance or Balance Transfer is made and will continue to accrue on
unpaid balances as long as it remains unpaid. There is no time period
within which to pay to avoid Interest on Cash Advances or on Balance
Transfers.
Calculating the Balance Subject to Interest
Average Daily Balance of Cash Advances (including new Cash
Advances): To get the Average Daily Balance of Cash Advances, we
take the beginning Cash Advance balance of your Account each day,
add any new Cash Advances as of the date of transaction and
subtract the applicable portion of any payments and credits as of the
date of posting. This gives us the daily balance for Cash Advances.
Then we add all these daily balances for the Billing Cycle together and
divide the total by the number of days in the Billing Cycle. This gives
us the Average Daily Balance of Cash Advances.
Average Daily Balance of Purchases (including new Purchases):
The balance calculation method for Purchases is the Average Daily
Balance (including new purchases). To get the Average Daily Balance
of Purchases, we take the beginning Purchase balance of your
Account each day, add any new Purchases as of the date of
transaction, and subtract the applicable portion of any payments and
credits as of the date of posting. This gives us the daily balance for
Purchases. Then we add all these daily balances for the Billing Cycle
together and divide the total by the number of days in the Billing Cycle.
This gives us the Average Daily Balance of Purchases.
Average Daily Balance of Balance Transfers (including new
Balance Transfers): To get the Average Daily Balance of Balance
Transfers, we take the beginning Balance Transfer balance of your
Account each day, add any new Balance Transfers as of the date of
transaction and subtract the applicable portion of any payments and
credits as of the date of posting. This gives us the daily balance for
Balance Transfers. Then we add all these daily balances for the Billing
Cycle together and divide the total by the number of days in the Billing
Cycle. This gives us the Average Daily Balance of Balance Transfers.
Computing the Monthly Periodic Rate and corresponding ANNUAL
PERCENTAGE RATE (APR)
Regular Terms
Promotional or Introductory Monthly Periodic Rates: Any
Promotional or Introductory Monthly Periodic Rate(s) and
corresponding ANNUAL PERCENTAGE RATE, the type of average daily
balances to which it applies if it does not apply to all your average
daily balances, and the period for which it is applicable, are shown on
the accompanying Summary of Terms. However, if we fail to receive
your Minimum Payment by the Payment Due Date in any two
consecutive Billing Cycles, then any Promotional or Introductory
Monthly Periodic Rates and corresponding ANNUAL PERCENTAGE
RATE will be replaced by the applicable Monthly Periodic Rate and
corresponding ANNUAL PERCENTAGE RATE determined as described
below under “Regular Monthly Periodic Rates” and “Penalty Monthly
Periodic Rate”, and any Promotional or Introductory period that would
otherwise have remained in effect will be deemed to have terminated
early. Except during periods and with respect to balances for which
such a Promotional or Introductory Monthly Periodic Rate is
applicable, each Monthly Periodic Rate and corresponding ANNUAL
PERCENTAGE RATE applicable to your Account will be determined as
described below under “Regular Monthly Periodic Rates” and “Penalty
Monthly Periodic Rate”. As required by applicable law, you will receive
advance notice of any increase in your Monthly Periodic Rate(s) and
corresponding ANNUAL PERCENTAGE RATE. Such notice will also
include the effective date of any increase.
Regular Monthly Periodic Rates: One or more Monthly Periodic
Rates and corresponding ANNUAL PERCENTAGE RATES apply to
your Account, as shown in the accompanying Summary of Terms and
Card Carrier.
Purchases and Balance Transfers: The Regular Monthly Periodic Rate
and corresponding ANNUAL PERCENTAGE RATE applicable to
Purchases and Balance Transfers may vary. The Regular Monthly
Periodic Rate applied in any Billing Cycle to the Average Daily Balance
of Purchases and the Average Daily Balance of Balance Transfers will
be equal to 1/12 of the total of (i) the highest Prime Rate published in
the “Money Rates” section of The Wall Street Journal on the last
business day of the calendar month in which the Billing Cycle begins
(or if not published that day, on the date of its next publication
. . . CONTINUED ON REVERSE

following that date), the “Prime Rate,” and (ii) the Margin shown in the
accompanying Summary of Terms. The sum of the Prime Rate and
the Margin will never be less than the Floor Rate or greater than the
Ceiling Rate if so indicated on the accompanying Summary of Terms.
The Prime Rate utilized may not be the lowest rate offered in the
market. The current Regular Monthly Periodic Rate(s) and
corresponding ANNUAL PERCENTAGE RATE(S) under the above
formula are shown on the accompanying Summary of Terms. If the
Prime Rate increases, the Regular Monthly Periodic Rate(s) and
corresponding ANNUAL PERCENTAGE RATE(S) under the above
formula may increase. As a result, the Interest, the Minimum
Payment, and the number of payments may also increase. Any new
Regular Monthly Periodic Rate(s) will apply to your entire Average
Daily Balance of Purchases and your Average Daily Balance of
Balance Transfers, including both existing balances and new
transactions, and determined as described above.
Cash Advances: The Regular Monthly Periodic Rate and
corresponding ANNUAL PERCENTAGE RATE applicable to Cash
Advances is a fixed rate. The Regular Monthly Periodic Rate and
corresponding ANNUAL PERCENTAGE RATE applicable to your
Average Daily Balance of Cash Advances is shown on the
accompanying Summary of Terms.
Penalty Terms
Penalty Monthly Periodic Rate: Notwithstanding the above provisions
relating to Promotional or Introductory Monthly Periodic Rates and
Regular Monthly Periodic Rates, following the occurrence of either of
the Penalty Rate Conditions listed in the accompanying Summary of
Terms, the Monthly Periodic Rate and corresponding ANNUAL
PERCENTAGE RATE applicable to each Average Daily Balance of your
Account will be the fixed rate shown as the Penalty Monthly Periodic
Rate and corresponding ANNUAL PERCENTAGE RATE on the
accompanying Summary of Terms, but (with respect to each such
balance) only if that Penalty Monthly Periodic Rate and corresponding
ANNUAL PERCENTAGE RATE represent an increase over the Monthly
Periodic Rate and corresponding ANNUAL PERCENTAGE RATE that
would otherwise then apply to each balance. In any event you will
receive applicable advance notice of any increase to your Periodic
Rate(s) and corresponding ANNUAL PERCENTAGE RATE(S). Such
notice will include the effective date of any increase.
OTHER CHARGES
In addition to Interest, a variety of fees and charges may be applied to
your Account, as follows:
Annual Membership Fee
If there is an Annual Membership Fee for this Account it will be shown
on the accompanying Summary of Terms. This fee will be assessed
annually on the anniversary date of your Account.
Late Payment Charge
If we do not receive your Minimum Payment on or before the Payment
Due Date, we will apply a Late Payment Charge to your Account in the
amount shown in the accompanying Summary of Terms.
Overlimit Fee
If you have opted-in for Overlimit coverage and if your New Balance
exceeds your Credit Line on the Closing Date of the Billing Cycle, we
will apply an Overlimit Fee to your Account in the amount shown in the
accompanying Summary of Terms. Only one Overlimit Fee will be
assessed in any one Billing Cycle regardless of the number of times
that your Account may become Overlimit.
Returned Payment Fee
Should any item in payment of your Account be returned to us unpaid
for any reason, we will apply a Returned Payment Fee to your Account
in the amount shown in the accompanying Summary of Terms.
Documentation Fee
You may request a copy of a statement previously sent to you for a
Documentation Fee in the amount shown in the accompanying
Summary of Terms, which will be added to your Account. Copies of
sales tickets or other items posted to your Account may be obtained
for a Documentation Fee in the amount shown in the accompanying
Summary of Terms, which will be added to your Account.
Notwithstanding the foregoing, we will not impose any fee in
connection with a good faith assertion of a billing error or other
exercise of your Billing Rights (see below under “Your Billing Rights
Keep This Notice For Future Use”).
LOST CARDS AND UNAUTHORIZED USE
If your Card is lost or stolen or used without your consent, you may
be liable for the unauthorized use of your Card, but you will not be
liable for unauthorized use that occurs after you notify us orally or in
writing of the loss, theft or possible unauthorized use at: Credit Card
Center, P.O. Box 114, Jackson, MS 39205-0114 or 1-601-949-4462
or toll free at 1-(800) 243-2524. In any case, your liability will not
exceed $50.
YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights and our
responsibilities under the Fair Credit Billing Act.
Notify Us in Case of Errors or Questions About Your Bill
If you think your bill is wrong, or if you need more information about a
transaction on your bill, please write to us at Credit Card Center, P.O.
Box 114, Jackson, MS 39205-0114. Write to us as soon as possible.
We must hear from you no later than 60 days after we send you the
first bill on which the error or problem appeared. You can telephone us
at 601-949-4462, but doing so will not preserve your rights.
In your letter, give us the following information:
• Your name and Account number.
• The dollar amount of the suspected error.
• Describe the error and explain, if you can, why you believe
there is an error. If you need more information, describe the
item you are not sure about.
If you have authorized us to pay your Account bill automatically from your
savings or checking account, you can stop the payment on any amount
you think is in error. To stop payment, your letter must reach us three
business days before the automatic payment is scheduled to occur.
Your Rights and Our Responsibilities After We Receive Your
Written Notice
We must acknowledge your letter within 30 days unless we have
corrected the error by then. Within 90 days, we must either correct
the error or explain why we believe the bill was correct.
After we receive your letter, we cannot try to collect any amount you
question or report you as delinquent. We can continue to bill you for
the amount you question, including Interest, and we can apply any
unpaid amount against your Credit Line. You do not have to pay any
questioned amount while we are investigating, but you are still
obligated to pay the parts of your bill that are not in question.
If we find that we made a mistake on your bill, you will not have to pay
any Interest related to any questioned amount. If we did not make a
mistake, you may have to pay Interest, and you will have to make up
any missed payments on the questioned amount. In either case, we
will send you a statement of the amount you owe and the date that it
is due.
If you fail to pay the amount that we think you owe, we may report
you as delinquent. However, if our explanation does not satisfy you
and you write to us within 10 days telling us that you still refuse to
pay, we must tell anyone we report you to that you have a question
about your bill. And, we must tell you the name of anyone we
reported you to. We must tell anyone we report you to that the matter
has been settled between us when it is resolved.
If we do not follow these rules, we cannot collect the first $50 of the
questioned amount, even if your bill was correct.
Special Rule for Credit Card Purchases
If you have a problem with the quality of property or services that you
purchased with a credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to
pay the remaining amount due on the property or services. There are
two limitations on this right:
(1) you must have made the purchase in your home state or, if not
within your home state, within 100 miles of your current mailing
address; and
(2) the purchase price must have been more than $50.
These limitations do not apply if we own or operate the merchant, or if
we mailed you the advertisement for the property or services.

OUR RIGHTS, AND HOW THEY AFFECT YOU
Telephone Monitoring
From time to time, we may monitor telephone calls regarding your
Account with us to assure the quality of our service. You acknowledge
and agree to any such monitoring or recording of telephone calls.
Refunds
If a seller agrees to give a refund, you will accept a credit on your
Account instead of a cash refund.
No Waiver of Rights; Disputed Amounts
We can accept late or partial payments without losing any of our
rights under this Agreement. You agree not to send us partial
payments marked “paid in full,” “without recourse,” or similar
language. If you send such a payment, we may accept it without
losing any of our rights under this Agreement. All written
communications concerning disputed amounts, including any check
or other payment instrument that indicates that the payment
constitutes “payment in full” of the amount owed or that is
tendered with other conditions or limitations or as full satisfaction
of a disputed amount, must be mailed or delivered to Credit Card
Center, P.O. Box 114, Jackson, MS 39205-0114.
Credit Reports and Information
You authorize us to make or have made any credit, employment, or
other investigative inquiries we deem appropriate (including without
limit by obtaining a consumer report) prior to extending credit to you.
You also authorize us to make such inquiries and obtain consumer
reports when renewing, updating, or collecting on your Account in the
future. Upon your request, we will tell you whether a consumer report
was requested and the names and addresses of any consumer
reporting agencies that provided such reports. You are advised that a
negative credit report reflecting on your credit record may be
submitted to a credit reporting agency if you fail to fulfill the terms of
this Agreement.
Notice of Inaccurate Information
If you believe that we have information about you that is inaccurate or
that we have reported or may report to a credit reporting agency
information about you that is inaccurate, please notify us of the
specific information that you believe is inaccurate by writing to us at
Credit Card Center, P.O. Box 114, Jackson, MS 39205-0114.
Collection and Default
Unless prohibited by applicable law, your Account is considered to be
in default if (1) we do not receive at least the Minimum Payment on or
before the Payment Due Date, (2) you try to exceed or do exceed your
Credit Line without permission, (3) you become subject to bankruptcy
or insolvency proceedings, (4) you become subject to attachment or
garnishment proceedings, (5) you give us any false information or
signature, (6) you die, or (7) you fail to comply with any portion of
this Agreement. Our accepting a late or partial payment does not
waive the default. Default on this Account will constitute default on all
accounts you hold with us, except to the extent prohibited by
applicable law.
Subject to any notice of default and right to cure or other restrictions
of applicable law, if you are in default, we may declare the entire
balance due immediately. Unless prohibited by applicable law you
agree to pay our reasonable costs and attorneys’ fees related to the
collection of your Account.
Change of Terms
Subject to the limitations of applicable law, we may, at any time,
change or remove any of the terms and conditions of, or add new
terms or conditions to, this Agreement. We will send notice of
such a change to you then in the manner required by applicable
law. As of the effective date, the changed or new terms will apply
to new Purchases and Cash Advances and Balance Transfers made
and/or posted to your Account after such date,and also to the
outstanding balances(s) of your Account subject to the limitations
of applicable law.
Delay in Enforcement
We can delay enforcing our rights under this Agreement without losing them.
OTHER PROVISIONS
Ownership and Use of Your Card
As the Account Cardholder(s), you are liable for all credit obtained
under your Account. If you authorize another person to use your Card
or Check, you are liable for any credit obtained on your Account for as
long as that person holds the Card or Check. In addition, you will
remain liable until you recover possession of the Card or Check.
Misuse of your Card by an authorized person will not be considered
unauthorized use. See “Lost Cards and Unauthorized Use” above. All
Cards and Checks issued by us remain our property. We reserve the
right to cancel, suspend, recall or reissue any Card or Check at any
time without prior notice. Upon demand, you must return any Card
we supply to you or destroy the Card by cutting it in half immediately.
Checks must be mailed or returned to us upon request. Cards may
not be reissued if you move out of our service area.
Internet Gambling Transactions
Internet gambling transactions submitted for authorization will be
declined. These transactions include, but are not limited to, lottery
tickets, casino gambling chips, off-track betting and wagers at
racetracks. This includes transactions on any Card or Account issued
through us.
Transactions
You will retain for statement verification your copy of each purchase
slip, Cash Advance or other transaction to your Account.
Transfer and Termination of Your Account
You may not transfer your Account to any other person. We may
assign your Account to any other person at any time. Either you or
we may terminate or suspend your credit privileges at any time.
However, you will remain liable for all charges until they are paid in
full.
Honoring Your Card
We are not liable for the failure or refusal of a merchant, ATM or other
institution to honor your Card. Although you may have credit available,
we will not be liable for the failure to authorize credit due to operational
difficulties or mistakes. Transactions made above a certain dollar
amount may require authorization by us before the transaction can be
approved. In addition, we may limit the number and amount of
transactions approved in one day for security reasons.
Change of Address, Employment and Telephone
We will send all written notices and statements to your address as it
appears on our records. To avoid delays and missed payments that
could affect your credit standing, you agree to advise us promptly if
you change your mailing address, place of employment, or telephone
number.
Severability
In the event that any provision of this Agreement is determined to be
invalid or unenforceable for any reason, the remaining provisions will
remain in effect.
Entire Agreement; Interpretation
This Agreement constitutes the final expression of the credit
agreement between you and us relating to your Account. The
headings used in this Agreement are for the convenience of reference
only and are not intended to define or describe the scope or intent of
any portion of the Agreement.
Governing Law
This Agreement and your Account, and any claim, dispute or
controversy (whether in contract, tort, or otherwise) at any time
arising from or relating to your Account, this Agreement or any
transferred balances, are governed by and construed in accordance
with applicable federal law and the laws of Mississippi. The legality,
enforceability and interpretation of this Agreement and the amounts
contracted for, charged and reserved under this Agreement will be
governed by such laws. This Agreement is entered into between you
and us in Mississippi. We make decisions about granting credit to
you from, extend credit to you under this Agreement from, and accept
your payments in, Mississippi.
The card issuer:
Trustmark National Bank
P.O. Box 114
Jackson, MS 39205-0114
February 2010

F03-1842-6 -0210 CP10-77797

